AUDIT OF OVERSIGHT OF HIGHWAY-
RAIL GRADE CROSSING ACCIDENT
REPORTING, INVESTIGATIONS, AND
      SAFETY REGULATIONS
     Federal Railroad Administration

      Report Number: MH-2006-016
     Date Issued: November 28, 2005
                                                               Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Audit of Oversight of                                      Date:    November 28, 2005
           Highway-Rail Grade Crossing Accident Reporting,
           Investigations, and Safety Regulations
           Federal Railroad Administration
           Report No. MH-2006-016
  From:    Kurt Hyde                                                                 Reply to
                                                                                     Attn. of:   JA-40
           Assistant Inspector General for
            Surface and Maritime Programs

    To:    Joseph H. Boardman
           Federal Railroad Administrator



           This report presents the results of the Office of Inspector General’s (OIG) third
           audit of the Federal Railroad Administration’s (FRA) activities to oversee safety
           on the nation’s highway-rail grade crossings (grade crossings). The report
           addresses three grade crossing safety issues raised in articles published by The
           New York Times in July 2004. 1 These articles alleged problems with railroad
           accident reporting, investigations at grade crossings, and several other safety
           issues.     The audit was conducted at the request of Representative
           James L. Oberstar, Ranking Member of the House Committee on Transportation
           and Infrastructure; Representative Corrine Brown, Ranking Member of the House
           Subcommittee on Railroads; and then-Senator Ernest F. Hollings, Ranking
           Member of the Senate Committee on Commerce, Science and Transportation.
           Senator Daniel K. Inouye, Ranking Member of the Senate Appropriations
           Subcommittee on Commerce, Justice, and Science, joined the original requesters
           of this audit, following Senator Hollings, retirement.




           1
               “In Deaths at Rail Crossings, Missing Evidence and Silence,” by Walt Bogdanich, The New York Times,
               July 11, 2004. “A Crossing Crash Unreported and a Family Broken by Grief,” by Walt Bogdanich, The New York
               Times, July 12, 2004.
                                                                                                                       2

The objective of this audit was to assess the adequacy of FRA’s oversight of grade
crossing (1) accident reporting to the National Response Center (NRC), 2
(2) accident investigations, and (3) enforcement of safety regulations. Trespassing
fatalities and injuries on railroad property were not included in this audit.

The focus of this audit differed significantly from the second grade crossing safety
report the OIG issued on June 16, 2004. 3 The 2004 report focused on the
Department of Transportation’s (Department) progress in implementing its 1994
Highway-Rail Grade Crossing Safety Action Plan and identified areas for
targeting future improvements. This audit focused on whether FRA has exercised
adequate oversight of the extent to which railroads have complied with regulatory
requirements to immediately report grade crossing collisions to NRC, 4 investigate
collisions, and maintain automated crossing warning signals. A fourth audit report
will soon be issued assessing the adequacy of FRA’s oversight of grade crossing
accident reporting to FRA and control of vegetation at grade crossings.

BACKGROUND
The 11 percent increase in grade crossing fatalities, from 332 in 2003 to 368 in
2004, 5 and continued public interest in further enhancing railroad safety to reduce
the number of these fatalities present significant challenges to FRA’s oversight
and enforcement activities for all railroads. The Class I or major railroad
companies 6 accounted for $34 billion, or 92 percent, of total railroad freight
revenues in 2003 (latest year for which data were available). As shown in
Figure 1, all but six states (Alaska, Hawaii, Maine, New Hampshire, Rhode Island,
and Vermont) have at least one of the four largest freight railroads operating in
them. In addition, the National Railroad Passenger Corporation (Amtrak) operates
in 46 states and the District of Columbia.




2
  As part of the Department of Homeland Security, NRC is the Federal Government’s 24-hour point of contact for
   environmental discharges anywhere in the United States and its territories. In addition, through agreements
   containing criteria that serve as triggers for reporting, NRC notifies FRA and other Federal agencies of fatal train
   accidents and grade crossing collisions.
3
  OIG Report No. MH-2004-065, “Audit of the Highway-Rail Grade Crossing Safety Program,” June 16, 2004 (second
   audit). OIG Report No. RT-1999-140, “Rail-Highway Grade Crossing Safety,” September 30, 1999 (first audit).
   OIG reports can be accessed on the web at www.oig.dot.gov.
4
  The National Transportation Safety Board has defined “immediate reporting to NRC” by directing the railroads to
   report fatal grade crossing collisions within 2 hours. FRA’s regulations require railroads to immediately report fatal
   crossing collisions to NRC, but do not specify a time limit for reporting.
5
  Throughout this report, unless otherwise indicated, calendar year data are reported. The grade crossing accident and
   fatality statistics were obtained from FRA, as of May 31, 2005.
6
  As of 2003, the Surface Transportation Board defined a freight railroad company with annual operating revenues of
   $277.7 million or more as Class I. Seven freight railroads qualified as Class I—Burlington Northern Santa Fe
   Railway Company, Canadian National Railway, Canadian Pacific Railway, CSX Transportation, Kansas City
   Southern Railway Company, Norfolk Southern, and Union Pacific Railroad Company.
                                                                                                                            3



           Figure 1. Number of the Four Largest Class I Railroads
                      Operating in Each State in 2003

                                 WA
                                                    MT                                                                 ME
                                                               ND
                                                                         MN                                        V N
                                OR
                                                                                                                   T H
                                          ID
                                                               SD                   WI                         NY    MA
                                                     WY                                      MI                     CT
                                                                                                                       RI
                                                                                                                  N
                                                               NE         IA                                PA
                                     NV                                                                           J
                                                                                                  OH           MD DE
                                                                                     IL     IN
                                               UT
                                                         CO                                            WV
                            CA
                                                                    KS        MO                            VA
                                                                                                 KY
                                                                                                            NC
                                                                                           TN
                                          AZ         NM             OK
                                                                              AR                           SC

                                                                                     MS     AL        GA
                                                                TX             LA


                           AK                                                                               FL




                                                          HI                        4 MAJOR CLASS I RAILROADS


                                                                                    3 MAJOR CLASS I RAILROADS


                                                                                    2 MAJOR CLASS I RAILROADS

                                                                                    1 MAJOR CLASS I RAILROADS


                                                                                    NO MAJOR CLASS I RAILROADS


                    Source: Association of American Railroads

From 1999 through 2003, the total train miles traveled increased from 712 million
miles to 744 million miles, or by 4 percent, and the total miles traveled by
roadway motor vehicles increased from 2.7 trillion miles to 2.9 trillion miles, or by
7 percent. During the same 5-year period, both collisions and fatalities at the
nation’s grade crossings decreased by 15 percent and 17 percent, respectively. As
we reported in June 2004, this significant decrease was attributable to the
Department addressing much of the “low-hanging fruit,” that is, working with the
states and railroads to close grade crossings, install automatic gates and flashing
lights at public crossings with a high probability for collisions, and educate the
public about crossing safety. The Department also made progress in implementing
safety initiatives included in its 1994 Grade Crossing Safety Action Plan.

Nationwide, there were 243,016 grade crossings in 2004, of which 149,628 or
62 percent were maintained by public transportation authorities (public). 7 Of
these public crossings, 63,387 or 42 percent had automatic warning devices.

7
    Typically, public grade crossings are protected by a combination of active warning devices, passive warnings, or both.
     Active warning devices—automatic gates, flashing lights, highway traffic signals, and other automatic devices—are
     activated by approaching trains and warn motorists and pedestrians to yield to train traffic. Passive warnings consist
     of crossbucks, stop signs, advanced warning signs, pavement markings, and other non-train activated warnings (flag-
     waving railroad or law enforcement personnel) that advise motorists of the presence of a grade crossing.
                                                                                                             4

However, automatic warning devices do not prevent all accidents. Nearly half of
the grade crossing collisions that occurred, from 2000 through 2004, were at
crossings with active warning devices. As train and highway traffic increase each
year, the possibility of collisions at grade crossings poses an increasing threat to
the traveling public and presents many challenges for the Federal oversight of
railroad safety.

RESULTS IN BRIEF
Over the last 10 years, significant progress has been made in reducing collisions
and fatalities at grade crossings. The number of grade crossing collisions fell
39 percent, from 4,979 at the end of 1994 to 3,045 at the end of 2004. During this
same period, the number of fatalities decreased from 615 to 368, or by 40 percent.
The Department is continuing to focus on improving grade crossing safety and
addressing related challenges to railroad safety. In May 2004, at the direction of
Congress, the Secretary of Transportation issued a new national grade crossing
safety action plan that calls for a comprehensive Department-wide effort to adopt a
uniform strategy to further reduce crossing collisions and fatalities. To discourage
dangerous behavior by motor vehicle drivers, the Department’s new action plan
identifies several initiatives, such as vigorously enforcing grade crossing traffic
laws.

To its credit, FRA implemented a process in July 2004 to enforce reporting of fatal
grade crossing collisions to NRC, began implementation of a National Inspection
Plan in April 2005 to strengthen its compliance program, and issued a safety
advisory in May 2005 promoting grade crossing safety. FRA also issued three
new rules to enhance safety at grade crossings in 2005. 8 The rules require using
reflective stickers on railroad cars to increase visibility, strengthening Federal
requirements for sounding horns at crossings, and improving the crashworthiness
of locomotive event recorders. These are all important actions, but from 2003 to
2004, grade crossing accident statistics increased—collisions rose from 2,963 to
3,045 (or by 3 percent) and the number of fatalities jumped from 332 to 368 (or by
11 percent). These increases and the upward trend in train and highway traffic
indicate that more needs to be done to improve grade crossing safety.

We found that greater attention is needed in the areas of reporting and
investigating grade crossing collisions, and strengthening enforcement when an
FRA inspector cites a railroad for a safety defect. Specifically, railroads failed to
immediately notify NRC of 21 percent of reportable grade crossing collisions, as
required, most of which involved fatalities or multiple injuries. Although the

8
    FRA Final Rule on Reflectorization of Rail Freight Rolling Stock, January 3, 2005; FRA Final Rule on Use of
     Locomotive Horns at Highway-Rail Grade Crossings, April 27, 2005; and FRA Final Rule on Locomotive Event
     Recorders, June 30, 2005.
                                                                                             5

collisions were subsequently reported to FRA within the required 30 to 60 days
after the collision, by then it was too late to promptly decide whether or not to
conduct an investigation.

We also found that the Federal Government investigated very few grade crossing
collisions—only 9 of the 3,045 collisions that occurred in 2004. Even though
railroad accident reports attributed more than 90 percent of grade crossing
collisions to motorists, from 2000 through 2004, FRA did not routinely review
locomotive event recorder data, police reports, and other sources of information to
determine the causes of the collisions or the need for further investigation.

In addition, FRA recommended only 347 violations for the 7,490 critical safety
defects it identified for grade crossing signals. Given the 2004 increase in
collisions and fatalities, it is apparent that FRA needs to take a proactive oversight
approach to further reduce grade crossing accidents by clarifying its reporting
requirements, obtaining and analyzing independent accident data, and increasing
enforcement of existing safety regulations in the areas that pose the greatest threat
to public safety.

In response to continuing congressional interests and concerns about rail safety, in
July 2005, the Inspector General testified on the findings discussed in this report at
a Hearing on Railroad Grade Crossing Safety Issues before the House Committee
on Transportation and Infrastructure, Subcommittee on Railroads. The Inspector
General testified on three areas that FRA needs to address as it moves forward
with its new action plan. First, we found that railroads failed to report 21 percent
of serious crossing collisions to NRC and FRA can do more to enforce this
reporting requirement. Second, the Federal Government investigates very few
crossing collisions and needs to develop strategies to increase its involvement in
investigations. Third, FRA should strengthen its enforcement of grade crossing
safety regulations.

Since the July 2005 testimony, our follow-up audit work indicated that FRA had
not taken additional necessary actions to correct the problems we identified more
than 3 months ago. In the month following this hearing, several high-profile
crossing collisions occurred. 9 In August 2005, news reports highlighted three
separate grade crossing collisions, involving Amtrak passenger trains and dump
trucks that resulted in 2 fatalities and at least 35 injuries. In two of these
accidents, the force of the collision caused the train to derail. In one of these
collisions, as shown in Figure 2, the driver of the dump truck drove around a
lowered automatic gate, which is designed to warn drivers of an approaching train,
and into the path of an oncoming Amtrak train. According to news reports, the

9
    Railroad officials reported these three grade crossing collisions to NRC, as required.
                                                                                                                 6

resulting collision killed the truck driver and his passenger, injured 14 Amtrak
passengers, and derailed the train’s locomotive and four of its seven cars.

                 Figure 2: Amtrak Train Grade Crossing Collision
                                  August 2005




                          Source: FRA / CBS News in Raleigh, NC

Therefore, this report presents our findings, makes formal recommendations to
FRA to address the three areas previously identified to improve grade crossing
safety, and summarizes FRA’s comments on our findings and recommendations.
FRA generally concurred with our audit results and four recommendations and
agreed to take reasonable corrective actions to address them. However, we are
requesting that FRA provide target dates for implementing these corrective
actions. Specifically, our audit of FRA’s oversight of grade crossing accident
reporting to NRC, investigations, and safety regulations, found that:

       • Railroads failed to report 21 percent of reportable grade crossing
         collisions to NRC. Railroads are required to immediately report crossing
         collisions involving fatalities and/or multiple injuries to NRC. Immediate
         reporting allows the Federal Government to decide whether or not to
         conduct an investigation, shortly after a crossing collision has occurred.
         Our analysis showed, however, that 115, or 21 percent, of 543 reportable
         grade crossing collisions that occurred between May 1, 2003 10 and
         December 31, 2004 were not reported to NRC.                   Although the
         115 unreported crossing collisions, which resulted in 116 fatalities, were
         reported to FRA within 30 to 60 days after the collision, as required, that
         was too late to allow Federal authorities to promptly decide whether or not

10
     FRA’s Office of Safety issued “FRA Guide for Preparing Accident/Incident Reports,” effective May 1, 2003.
                                                                                                                         7

            to conduct an investigation. In July 2004, FRA began reconciling its
            database with the NRC to identify grade crossing collisions that had never
            been reported to NRC. In March 2005, FRA officials began issuing
            violations to railroads that failed to follow FRA’s criteria for reporting
            grade crossing collisions to NRC. This enforcement effort needs to be
            sustained to ensure that railroads properly report all grade crossing
            collisions involving a fatality, serious injury, or substantial property
            damage.

            FRA established ten different criteria for immediately reporting railroad
            accidents to NRC—some criteria apply to any train accident and others
            apply only to grade crossing collisions. In our opinion, to avoid confusion
            over the reporting requirements for railroads, FRA must clarify its
            requirements for reporting crossing collisions to NRC. To clarify accident
            reporting, we recommended that FRA require the railroads to report to
            NRC any grade crossing collision resulting in a fatality at the scene or
            death within 24 hours of the accident. In its November 2, 2005 written
            comments to this report, FRA proposed actions to clarify reporting
            requirements in the Code of Federal Regulations, Title 49, Part 225.9,
            “Telephonic Reports of Certain Accidents/Incidents and Other Events,” by
            including new criteria that require the railroads to report to NRC any death
            that occurs within 24 hours of a grade crossing collision.

       • The Federal Government investigated very few crossing collisions. FRA
         investigated 9 of the 3,045 grade crossing collisions that occurred in 2004.
         From 2000 through 2004, FRA investigated 47, or 13 percent, of 376 of the
         most serious 11 crossing collisions that the railroads reported. We found that
         no Federal investigations were conducted for the remaining 329 most
         serious crossing collisions, which resulted in 159 fatalities and
         1,024 injuries. FRA officials stated that the National Transportation Safety
         Board (NTSB) is the lead Federal agency responsible for investigating
         railroad accidents, not FRA. However, NTSB tends to investigate high-
         profile grade crossing collisions. For example, from 2000 though 2004,
         NTSB conducted seven grade crossing collision investigations.
         Consequently, the Federal Government did not independently investigate
         most crossing collisions, but rather received information concerning the
         causes of collisions almost exclusively from the railroads.

            The railroads’ grade crossing accident reports attributed over 90 percent of
            the collisions that occurred from 2000 through 2004 to motorists, but FRA

11
     For our analysis of FRA’s accident data, we defined the most serious grade crossing collisions as those resulting in a
     total of three or more fatalities and/or injuries.
                                                                                                                   8

            did not conduct its own investigations to verify the causes. Independently
            collecting and analyzing information about grade crossing collisions would
            substantially improve FRA’s ability to determine the causes of grade
            crossing collisions and better target collisions that should be investigated
            further. The collection and analysis of this information is especially
            important given the limited resources of FRA’s inspection staff.
            Nationwide, 55 of about 400 FRA inspectors are assigned to inspect the
            63,387 warning signal systems at grade crossings.

            To better evaluate the causes of collisions and railroads’ compliance with
            Federal safety regulations, we recommended that FRA use a pilot program
            to collect and analyze independent information on crossing collisions from
            railroads and local or state law enforcement agencies. FRA concurred with
            our recommendation and proposed to implement a 1-year pilot study
            comprised of one state from each of its eight regions to assess the benefits
            and costs of analyzing information from independent sources on crossing
            collisions, such as police reports on a routine basis and locomotive event
            recorder data on an as needed basis, to resolve conflicts.

       • FRA recommended few violations for the many critical safety defects 12 it
         identified. FRA Signal and Train Control inspectors inspect grade crossing
         warning signals for safety defects, both non-critical and critical. Critical
         defects are those with the most direct safety impact to highway and rail
         users, such as the failure of a warning signal to activate or the failure of a
         railroad employee to repair signal malfunctions in a timely manner. From
         2000 through 2004, FRA inspectors identified 7,490 critical safety defects
         out of 69,405 total safety defects related to automated grade crossing
         warning signals. Yet, FRA recommended only 347 critical defects, or
         about 5 percent, for violations that carry a fine. In our view, FRA’s policy
         of inspectors using their discretion in deciding whether to recommend a
         violation has resulted in the small number of critical defects recommended
         for violations.

            Furthermore, after violations are issued, Federal law allows FRA to
            compromise the amount of the civil penalty with the railroads, resulting in
            the collection of lower penalties, despite the many critical safety defects
            found. Similarly, when railroads fail to comply with existing Federal grade
            crossing safety regulations, we recommended that FRA increase
            enforcement by recommending more violations and assessing and
            collecting civil penalties.      FRA generally concurred with this

12
     Defects are instances of noncompliance with Federal railroad safety regulations. For examples of critical safety
     defects, see Exhibit C.
                                                                                     9

       recommendation and noted that in response to our February 16, 2005
       memorandum summarizing past OIG safety-related findings and
       recommendations, it has already placed great emphasis on focused
       enforcement of its safety regulations, including those governing grade
       crossing warning signals. For example, in 2003, FRA collected only
       $270,950 in penalties from all railroads for grade crossing signal violations.
       However, in 2005, FRA assessed and collected $298,000 from one railroad
       for defects relating to a single 2004 collision that resulted in two fatalities,
       more than the total penalties imposed upon all of the railroads in 2003 for
       grade crossing signal violations. The higher level of penalty, like that
       imposed in 2005, can be expected to better focus a railroad’s attention on
       crossing safety.

FINDINGS
Railroads Failed to Report 21 Percent of Reportable Crossing
Collisions to NRC and FRA Can Do More to Enforce This
Requirement.
Federal regulations require railroads to immediately notify NRC telephonically of
certain deaths, injuries, collisions, or other incidents at grade crossings.
Immediate reporting allows the Federal Government to decide whether or not to
conduct an investigation, shortly after a crossing collision has occurred. We found
six large railroads and several smaller ones that failed to notify NRC of reportable
grade crossing collisions. From May 1, 2003 through December 31, 2004, 115 of
543, or 21 percent, of reportable grade crossing collisions were not reported to
NRC. These unreported collisions involved 116 fatalities.

FRA officials informed us that the underreporting of grade crossing collisions was
attributable largely to injured highway users dying after they were transported
from the grade crossing collision scene. For example, on October 29, 2003, a
Class I railroad did not notify NRC when one of its freight trains collided with a
motor vehicle at a public grade crossing in Tennessee. The railroad was not
required to report the collision when the seriously injured 18-year old driver was
first taken from the scene. However, the driver died shortly after arriving at the
hospital, which made the collision reportable to NRC, but the railroad never
notified NRC.

FRA officials also stated that railroad employees were confused about which
collisions to report to NRC. Their confusion contributed to missed reports. We
found the reporting requirements to be complex and potentially confusing as well.
FRA identifies ten different reporting categories, many of which contain similar
reporting factors (see Table 1). Common factors in the reporting categories are
                                                                                       10

deaths, serious injuries, and monetary damages. The overlapping of these
categories may contribute to confusion and underreporting on the part of the
railroads. FRA could address NRC reporting problems by clarifying its criteria
and having railroads report to NRC any crossing collision that results in a fatality
at the accident scene or death within 24 hours of the accident. In simplifying
existing NRC criteria, FRA should review the requirements for railroads to report
both grade crossing collisions and other train accidents/incidents.


         Table 1: FRA Criteria for Immediate NRC Reporting

FRA criteria require the following accidents/incidents to be reported to NRC
immediately:
1. death of a rail passenger or a railroad employee,
2. death of an employee of a contractor to a railroad performing work for the railroad,
3. death or injury of five or more persons,
4. a train accident that results in serious injury to two or more train crew members or
    passengers requiring their admission to a hospital,
5. a train accident resulting in evacuation of a passenger train,
6. a train accident or incident at a grade crossing resulting in a fatality,
7. a train accident resulting in damage of at least $150,000 to railroad and non-railroad
    property, or
8. a train accident resulting in damage of $25,000 or more to a passenger train, including
    railroad and non-railroad property.
9. a train accident or derailment on a main line that is used for scheduled passenger
    service.
10. a train accident/incident that fouls a main line used for scheduled passenger service.
Source: Code of Federal Regulations, Title 49, Part 225.9, “Telephonic Reports of Certain
Accidents/Incidents and Other Events”

When we issued our June 2004 report, FRA had not established a formal
mechanism to identify collisions that had not been reported to NRC, as required.
However, in July 2004, FRA established a process to verify whether the railroads
were reporting grade crossing collisions to the NRC by reconciling NRC’s data
with reports that railroads submit to a separate FRA database within 30 to 60 days
after the occurrence of a grade crossing collision. In March 2005, FRA officials
began issuing violations to railroads that failed to follow FRA’s criteria for
reporting grade crossing collisions to NRC.
                                                                                               11

The Federal Government Investigated Few Grade Crossing
Collisions and Needs to Collect and Analyze Independent
Information on All Crossing Collisions.
We found that FRA investigated less than 1 percent of all train accidents and grade
crossing collisions, from 2000 through 2004 (see Table 2). During the same time
period, it investigated 5 percent of the crossing collisions reported to the NRC.
FRA relied heavily on accident reports received from the railroads to evaluate the
circumstances, probable causes, and responsible parties for most crossing
collisions. The railroads’ grade crossing accident reports, however, attributed over
90 percent of the collisions that occurred from 2000 through 2004 to motorists.
FRA did not conduct its own investigations to verify the causes or routinely
review independent sources of information for these crossing collisions, such as
police reports or locomotive event recorder data.

Typically, crossing collisions are promptly investigated only by railroad
employees and state or local law enforcement officers, without any Federal
officials present. For most of the approximately 3,000 collisions that occur each
year, railroad employees are among the first to arrive at the accident scene to
investigate these collisions. The railroads are required to submit an accident
report to FRA within 30 days after the end of the month in which the crossing
collision occurred. For example, if a grade crossing collision occurred on
August 1, 2005, the railroad would have until September 30, 2005, to submit the
accident report to FRA.

           Table 2. Railroad Accident/Incident Investigations
                               2000-2004

                     Total Accidents/Incidents                    Grade Crossing Collisionsa
                                        Investigated                          Investigated
       Year     Number         Number           Percent         Number Number        Percent
       2000      16,918            89              0.5            3,502      12        0.3
       2001      16,087           116              0.7            3,237      18        0.6
       2002      14,404           100              0.7            3,077      10        0.3
       2003      14,239           112              0.8            2,963       4        0.1
       2004      13,939           124              0.9            3,045       9        0.3
       Total     75,587           541              0.7            15,824     53        0.3
   a
    Grade crossing collisions are a subset of total accidents/incidents.
   Source: FRA
                                                                                       12

State or local law enforcement officers also promptly arrive at the scene of
crossing collisions to independently document the circumstances, but their reports
are not routinely requested by FRA. With few Federal investigations and with
FRA rarely obtaining independent reports from law enforcement officers, FRA has
opted to rely primarily on the information in the railroads’ accident reports
regarding the nature, probable cause, and party responsible for most crossing
collisions.

Although both NTSB and FRA have legislative authority to investigate any
crossing collision, FRA officials stated that NTSB is the lead Federal agency
responsible for investigating accidents. However, NTSB tends to investigate high-
profile crossing collisions with multiple fatalities, conducting a total of seven
crossing investigations from 2000 through 2004. In March 2000, for example,
NTSB led the investigation of a collision between a CSX freight train and a school
bus in Tennessee that killed three and injured seven. FRA also participated in this
investigation.

With an inspector workforce of approximately 400, of which 55 are assigned to
inspect signal and train control devices, FRA has a limited capacity to investigate
the approximate 3,000 crossing collisions that occur each year. In addition to
investigating crossing collisions, FRA inspectors oversee railroad compliance with
Federal regulations by conducting regular inspections of railroad property, such as
equipment, tracks, and signals or investigate accidents, complaints, and signal
failures. Given FRA’s limited resources and other duties, its inspectors normally
investigate only those crossing collisions that involve (1) the malfunction of
automated warning devices; (2) a commercial vehicle or school bus with one or
more fatalities and/or several serious injuries; or (3) the death of three or more
highway users. However, on May 2, 2005, FRA issued a safety advisory to
facilitate improved cooperation in the investigation of collisions at grade
crossings. 13 The advisory described the roles of the Federal and state governments
and of the railroads in grade crossing safety. FRA reminded railroads of their
responsibilities and offered assistance to local authorities in the investigation of
grade crossing collisions where information or expertise within FRA's control is
required to complete the investigation.

Collecting and analyzing independent information about grade crossing collisions
would be especially important to FRA as a means to substantially improve its
ability to determine the causes and better target collisions that require further
investigation. While we found that FRA investigated most of the grade crossing
collisions that met its criteria, FRA’s criteria required the investigation of very few
crossing collisions. As reported previously, the fact that NRC was not notified of

13
     FRA Safety Advisory 2005-03; “Highway-Rail Grade Crossing Safety, May 2, 2005.”
                                                                                   13

21 percent of all reportable crossing collisions from May 1, 2003 through
December 31, 2004, further limited the number of investigations that FRA
conducted.

From 2000 through 2004, FRA investigated 47 of 376, or 13 percent, of the most
serious crossing collisions that occurred—those resulting in three or more fatalities
and/or severe injuries. We found that no Federal investigations were conducted
for the remaining 329 of these crossing collisions. Those collisions resulted in
159 fatalities and 1,024 injuries. In contrast, the Federal Aviation Administration
(FAA) conducted on-site investigations of 1,382, or 93 percent, of the
1,484 general aviation accidents that FAA had responsibility for investigating in
2004. The 1,706 total general aviation accidents that occurred in 2004 resulted in
556 fatalities. However, it is important to note that FAA has an Office of
Accident Investigations staffed with 8 full-time investigators whose mission is to
detect unsafe conditions and trends and to coordinate the process for corrective
actions. In addition, FAA uses personnel from other disciplines to conduct
investigations, including 2,989 inspectors from its Office of Aviation Safety.

FRA Recommended Few Violations for the Many Critical Safety
Defects It Identified and Should Increase Its Enforcement of
Existing Safety Regulations.
FRA made limited use of its regulatory enforcement authority in assessing civil
penalties to encourage compliance with Federal safety regulations by railroads that
failed to properly inspect and maintain grade crossings. Active highway warning
signals at grade crossings play a critical role in protecting the lives of motorists
and railroad employees. Our analysis of inspection data from 2000 through 2004
on grade crossing signals found that about 5 percent of critical defects were
recommended for violations, which carry civil penalties.

During the same time period, FRA inspectors identified 2,692 critical defects
where railroad employees failed to repair grade crossing warning systems “without
undue delay,” but recommended only 67, or about 2.5 percent, for violations. Just
such a failure resulted in the death of an elderly couple in a collision at a crossing
in Henrietta, New York, on February 3, 2004. Seven days earlier, on
January 27, 2004, railroad employees disabled the crossing’s warning signal
system because of false warning activations. The day after the fatal crash, FRA
cited the railroad for not promptly repairing the system, but did not recommend a
violation. The following day, FRA recommended that the railroad be penalized
for failing to stop its train at the crossing and to flag the traffic. On
February 9, 2004, FRA recommended one more penalty for failing to repair
without undue delay. This case received a great deal of public scrutiny and was
aggressively pursued by the New York State Attorney General. FRA recently
                                                                                  14

reported that it had assessed and collected $298,000 in penalties against this
railroad for the collision in Henrietta.

In general, FRA has not taken strong enforcement actions when critical safety
defects were identified. Critical defects are those with the most direct safety
impact to highway and rail users, such as the failure of a warning signal to activate
or the failure of a railroad employee to repair signal malfunctions in a timely
manner. Our analysis of inspection data from 2000 through 2004 on railroad
grade crossing signals found that FRA inspectors identified 7,490 critical safety
defects, but recommended only 347, or about 5 percent, for civil penalties (see
Table 3). In contrast, the Federal Motor Carrier Safety Administration (FMCSA)
takes a much more aggressive approach to enforce Federal safety regulations.
From Fiscal Years 2000 through 2004, FMCSA found 76,400 acute and critical
violations of the safety regulations and recommended 30,109, or about 40 percent,
for civil penalties.
                                                                                                15




             Table 3: Critical Grade Crossing Safety Defectsa
                                 2000-2004

                                                                  Percent of
         Critical Safety                           Number of      Violations
           Regulations               Number of      Violations Recommended for
         (See Exhibit C)            Defects Found Recommended   Defects Found
 Employee notification rules                  10                 0                          0

 Timely response to report                    88                12                     14
 of malfunction
 Activation failure                           74                17                     23
 Partial activation                            9                 0                          0
 False activation                           114                 25                         22
 Recordkeeping                              618                 12                         2
 Adjustment, repair, or                   4,680                 91                         2
 replacement of component
 Interference with normal                   547               160                      29
 functioning of system
 Standby power system                       552                 10                         2

 Activation of warning                      164                 15                         9
 system
 Standby power testing                      634                  5                         1

     Total                                7,490               347                          5
 a
  Code of Federal Regulations, Title 49, Part 234, “Grade Crossing Signal System Safety”
 Source: FRA

FRA inspectors have been encouraged to use their discretion when deciding
whether to recommend a defect for violation. In our view, this policy has resulted
in a small number of critical defects being recommended for violations.
Furthermore, after violations are issued, Federal law allows FRA to compromise
the amount of the civil penalty with the railroads, resulting in the collection of
lower penalties. In total, FRA collected only $270,950 in fines, as shown in Table
4, from railroads in 2003 for grade crossing signal violations.
                                                                                  16

                  Table 4: Collected Civil Penalties for
                   Grade Crossing Signal Violations
                               2000-2003

                                 Class I      Other
                    Year        Railroads    Railroads      Total
                    2000         $52,850      $8,800       $61,650
                    2001        $142,550      $97,450     $240,000
                    2002         $96,450      $59,650     $156,100
                    2003        $173,350      $97,600     $270,950
                    Total       $465,200     $263,500     $728,700
               Source: FRA

FRA needs to consider whether the small number of violations recommended for
civil penalties and the low amount of fines collected sufficiently encourage
railroads to better comply with Federal safety regulations. FRA should emphasize
compliance by strengthening enforcement through issuing more violations and
assessing and collecting civil penalties when critical safety defects are discovered.
We note that following the Secretary of Transportation’s announcement of the
Department’s new Grade Crossing Safety Action Plan in May 2004, FRA assessed
one railroad $298,000 for grade crossing signal violations related to the 2004
collision in Henrietta, New York, as discussed previously. Larger than the total
fines imposed upon all of the railroads in 2003 for grade crossing signal violations,
the level of penalty imposed in 2005 can be expected to focus a railroad’s attention
on crossing safety. Similarly, increased enforcement including civil penalties can
be expected to encourage railroads to better comply with Federal safety
regulations before grade crossing collisions occur, especially critical safety
defects.
                                                                                17



RECOMMENDATIONS
To further improve safety at the nation’s grade crossings, we recommend that
FRA:

1. Clarify accident reporting to NRC by requiring the railroads to report any
   grade crossing collision resulting in a fatality at the scene or death within
   24 hours of the accident.

2. Maintain its new monthly oversight practice of reconciling grade crossing
   accident reports submitted to its database with those reported to NRC and
   rigorously recommend violations and assess and collect civil penalties, when
   railroads have failed to report to NRC.

3. Collect and analyze independent information on crossing collisions (including
   event recorder data and accident reports) from railroads and local or state law
   enforcement agencies, using a pilot program. The pilot should be conducted in
   the states that have the most grade crossing accidents year after year and
   designed to collect information that will allow FRA to evaluate the cause of
   collisions, type of warnings in place, and railroads’ compliance with Federal
   safety regulations for each crossing fatality.

4. Increase enforcement of existing Federal grade crossing safety regulations
   when railroads fail to comply, especially with those involving critical defects,
   by recommending more violations and assessing and collecting civil penalties.
                                                                                18



AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
A draft of this report, dated September 26, 2005, was provided to the Office of the
Secretary, FRA, and the Federal Highway Administration (FHWA). In its
November 2, 2005 written comments, FRA generally concurred with our audit
results, concurred with three of four recommendations, generally concurred with
the fourth recommendation, and agreed to take reasonable corrective actions on all
four. FRA’s complete comments on the recommendations and other general
comments on the entire report are presented in the Appendix to this final report.
FHWA had no comments.

Recommendation 1. FRA concurred with our recommendation to clarify
accident reporting to NRC by requiring the railroads to report any grade crossing
collision resulting in a fatality at the scene or death within 24 hours of the
accident. It plans to clarify reporting requirements in the Code of Federal
Regulations, Title 49, Part 225.9, “Telephonic Reports of Certain
Accidents/Incidents and Other Events,” by including new criteria that require the
railroads to report to NRC any death that occurs within 24 hours of a grade
crossing collision. FRA also plans to coordinate the new reporting criteria with
NTSB before issuing the proposed rule clarification.

We consider FRA’s proposed actions reasonable. However, FRA did not provide
a date for completing its actions. Therefore, we request that FRA provide a
specific timetable for completing these actions and implementing this
recommendation.

Recommendation 2. FRA concurred with our recommendation to maintain its
new monthly oversight practice of reconciling grade crossing accident reports
submitted to its database with those reported to NRC and rigorously recommend
violations and assess and collect civil penalties, when railroads have failed to
report to NRC. FRA has advised us that it plans to continue reconciling grade
crossing accident reports with NRC reports and has begun citing civil penalties for
railroads that have clearly violated the NRC telephonic reporting requirement.

We consider FRA’s proposed actions responsive to this recommendation.

Recommendation 3. FRA concurred with our recommendation to collect and
analyze independent information on crossing collisions from railroads and local or
state law enforcement agencies, using a pilot program. However, it proposes to
implement the program with some modifications. As we recommended, FRA
plans to implement a 1-year pilot study involving a sample of states for which
                                                                                    19

police reports are readily available, specifically one state from each of FRA’s
eight regions. When police reports are not readily available, FRA may need to
request a copy from the railroads, which typically obtain them during their
investigations.

We also recommended that FRA conduct its pilot study in the states that have the
most grade crossing accidents year after year. To which FRA responded, “As
suggested, FRA will endeavor to select States with relatively high
accident/incident counts.” We expect that FRA’s endeavors will result in a pilot
study that includes a sample of states with the most crossing collisions.

As part of the pilot study, FRA also plans to compare the information in police
reports with the accident reports that railroads submit to its national database.
After the 12-month pilot study ends, FRA plans to determine the feasibility of
extending the pilot study to other states. Further, FRA does not concur with the
part of this recommendation that calls for routinely obtaining event recorder data
for the collisions reviewed under its pilot study. Instead, FRA plans to review
available event recorder data when there appears to be a conflict between the
police report and the railroad’s report of a grade crossing collision.

We consider the actions proposed by FRA to implement this recommendation
reasonable. However, we request that FRA provide a specific schedule for starting
the pilot study, methodology for selecting the states to be studied and analyzing
the results, and target date for reporting on the feasibility of extending the pilot to
other states.

Recommendation 4. FRA generally concurred with our recommendation to
increase enforcement of existing Federal grade crossing safety regulations when
railroads fail to comply, especially with those involving critical defects, by
recommending more violations and assessing and collecting civil penalties. FRA
stated that it has already placed great emphasis on focused enforcement of its
safety regulations in response to our February 16, 2005 memorandum. Further,
FRA stated that it is putting control systems in place to ensure good use of existing
data, whether reported by the railroads or gathered through the inspection process.

We consider FRA’s proposed actions responsive to this recommendation.

Overall, we are pleased with FRA’s response to our four recommendations and
expect that the necessary actions will be taken to implement each of them. During
the next year or so, time will tell whether FRA’s proposed actions have addressed
the findings and recommendations presented in this report.
                                                                                   20

ACTIONS REQUIRED
FRA’s proposed actions to address our recommendations to maintain its monthly
oversight practice of reconciling grade crossing accident reports submitted to its
national database with those submitted to NRC (recommendation 2) and to
increase enforcement of existing Federal crossing safety regulations
(recommendation 4) are responsive. However, we are requesting that FRA
provide a target completion date for clarifying accident reporting by requiring the
railroads to report to NRC any grade crossing collision resulting in a fatality at the
scene or death within 24 hours of the accident (recommendation 1). Further, we
are requesting that FRA provide a schedule for implementing its 1-year pilot study
(recommendation 3), including a definite start date, methodology for selecting
the states to be studied and analyzing the results, and target date for reporting
on the feasibility of extending the pilot to other states. In accordance with
Department of Transportation Order 8000.1C, we request that FRA provide a
written response within 15 calendar days of this final report for these two
recommendations.

We appreciate the courtesies and cooperation of FRA and other Department
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-2017 or Brenda R. James, Program Director, at
(202) 366-0202.

                                          #
                                                                                  21


EXHIBIT A. OBJECTIVE, SCOPE, METHODOLOGY, AND PRIOR
AUDIT COVERAGE
To accomplish the audit’s objective to assess FRA’s oversight of highway-rail
grade crossing accident reporting, investigations, and safety regulations, we
reviewed and compared laws, regulations, policies, procedures, guidance, and
other relevant information to understand Federal and state requirements for grade
crossing safety. We conducted audit work at FRA Headquarters and Federal
Highway Administration (FHWA). We contacted all FRA regional offices and
visited FHWA division offices in Georgia and Texas. We interviewed
representatives of the National Transportation Safety Board (NTSB), National
Response Center (NRC), American Association of State Highway and
Transportation Officials (AASHTO), the four largest railroads, railroad employee
unions, industry trade groups, and safety advocates (see Exhibit B) to obtain their
views about the Federal oversight of grade crossings. We also discussed their
roles and responsibilities, requirements, processes, and training programs for
further improving grade crossing safety. We used this information to identify
program weaknesses and assess compliance with existing Federal laws,
regulations, and other requirements.

Our audit work focused on the Nation’s four largest Class I railroads—Burlington
Northern Santa Fe Railway (BNSF), CSX Transportation (CSX), Norfolk
Southern Corporation (NS), and Union Pacific (UP). These railroads accounted
for 59 percent of all public grade crossings, 65 percent of all public grade crossing
accidents, and 76 percent of all train miles traveled in 2003. We visited BNSF
Headquarters in Fort Worth, Texas; NS Headquarters in Norfolk, Virginia; UP
Headquarters in Omaha, Nebraska; and CSX Headquarters in Jacksonville,
Florida. We discussed their processes and procedures for inspecting grade
crossing warning systems, reporting crossing collisions, and conducting
investigations of crossing collisions.

To assess the adequacy of FRA’s oversight grade crossing accident reporting, we
reviewed and analyzed Federal and state laws, regulations, policies, and guidance
to determine whether the railroads were complying with existing reporting
requirements. We also analyzed FRA databases to determine whether the
information contained in these databases was accurate, complete, timely, and in
compliance with regulations. We analyzed FRA’s data on public and private
grade crossing accidents that occurred from 2000 through 2004 to identify trends.
For the period covering May 1, 2003 through December 31, 2004, we compared
FRA’s national accident database with NRC accident reports to determine whether
collisions were reported to one database but not reported to the other.



Exhibit A. Objective, Scope, Methodology, and Prior Audit Coverage
                                                                                 22

To assess the adequacy of FRA’s oversight of grade crossing accident
investigations, we obtained and analyzed the investigative reports for the period
covering 2000 through 2004. We identified the number of crossing collisions
investigated by FRA and NTSB and determined whether the causes of the
accidents were consistent with the information the railroads reported to FRA. We
analyzed FRA’s database to determine whether all the grade crossing collisions
meeting FRA’s investigation criteria were investigated. We also identified the
processes the four largest Class I railroads used to investigate grade crossing
collisions and preserve evidence after collisions occur.

To assess the adequacy of FRA’s oversight of grade crossing safety regulations,
we reviewed the Code of Federal Regulations, Title 49, Part 234, “Grade Crossing
Signal System Safety”, which contains minimum maintenance, inspection, and
testing standards for grade crossing warning signal systems (see Exhibit C). We
interviewed officials at FRA’s Office of Chief Counsel to identify the amount of
civil penalties assessed and collected for violating these safety regulations. We
also reviewed and analyzed data on FRA crossing inspections conducted from
2000 through 2004 to determine the frequency of critical grade crossing defects,
such as the failure of active warning signals.

We conducted this performance audit from September 2004 through July 2005, in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.

Prior Audit Coverage
OIG Report Number RT-1999-140, “Rail-Highway Grade Crossing Safety,”
September 30, 1999, disclosed that the Department’s efforts had reduced the
number and the rate of grade crossing accidents and fatalities during the first half
of the 1994 Action Plan. However, to make further progress, the OIG
recommended that FRA focus on proven cost-effective strategies, improve the
program’s accident and inventory data, and better monitor state spending of
Federal funds.

On June 16, 2004, the OIG issued a follow-up Report Number MH-2004-065
“Highway-Rail Grade Crossing Safety Program.” The OIG reported that the
Department came close to meeting its 1994 Action Plan goal of fewer than 2,500
grade crossing accidents and 300 fatalities at the end of 2003. Much of this
progress was largely attributable to addressing the “low-hanging fruit.” To
achieve further improvements; the OIG recommended that the Department should
adopt a targeted approach that focuses on states and public crossings that
continued to have the most accidents.




Exhibit A. Objective, Scope, Methodology, and Prior Audit Coverage
                                                                     23


EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

Federal Railroad Administration
Office of the Associate Administrator for Safety
FRA Regional Offices
   California        Georgia             Illinois   Massachusetts
   Missouri          Pennsylvania        Texas      Washington

Federal Highway Administration
Office of Highway Safety
Federal Highway Division Offices
   Georgia
   Texas

State Agencies
Department of Transportation
   Florida
   Georgia
   Illinois
   Iowa
   Texas
Railroad Commission of Texas

Railroads
Burlington Northern and Santa Fe Railway Company
CSX Transportation
Norfolk Southern Corporation
Union Pacific Railroad Company

Other Organizations Contacted
American Association of State Highway and Transportation Officials
Angels on Track Foundation
Association of American Railroads
Brotherhood of Railroad Signalmen
Brotherhood of Locomotive Engineers and Trainmen
Brotherhood of Maintenance of Way Employees
National Response Center
National Transportation Safety Board
Transport Workers Union of America
Transportation Communication Union



Exhibit B. Activities Visited or Contacted
                                                                                  24


EXHIBIT C. CODE OF FEDERAL REGULATIONS, TITLE 49, PART
234, “GRADE CROSSING SIGNAL SYSTEM SAFETY” CRITICAL
SECTIONS (BRIEF DISCRIPTION)
§ 234.101 Employee notification rules.
This section requires that each railroad issue rules requiring that its employees
report malfunctions of highway-rail grade crossing warning systems to a
designated railroad employee or employees, and that such reports shall be made by
the quickest means of communications available.

§ 234.103 Timely response to report of malfunction.
This section requires that once a credible report of a malfunction of a highway-rail
grade crossing warning system has been received, the railroad having maintenance
responsibility for the warning system shall promptly investigate the report.
Further, if such malfunction is found to be caused by a faulty component, such
component shall be adjusted, repaired, or replaced without undue delay, as
required by Section 234.207.

§ 234.105 Activation failure.
This section requires that a railroad having maintenance responsibility for a
warning system take prompt action to provide alternative means of warning
highway users and railroad employees at a specific crossing where a credible
report of a system malfunction involving an activation failure has been received.
This section further requires specific actions to be followed to provide that
alternative warning.

When the alternative warning consists of at least one uniformed law enforcement
officer, one uniformed railroad police officer, or an appropriately equipped flagger
for each direction of highway traffic at the crossing, trains may proceed over the
crossing at normal speed. If an appropriately equipped flagger provides the
alternative means of warning but there is less than one flagger for each direction of
highway traffic available at the crossing, trains must not exceed 15 mph until the
locomotive has passed over the crossing. If there is no appropriately equipped
flagger, uniformed law enforcement officer, or uniformed railroad police officer to
provide alternative warning, each train must stop and a member of the train crew
must dismount the locomotive and flag highway traffic to a stop before the train
occupies the crossing. This section also requires that the locomotive audible
warning device be activated in accordance with railroad rules when approaching a
crossing where an activation failure has occurred.




Exhibit C. Code of Federal Regulations, Title 49, Part 234, “Grade Crossing
Signal System Safety” Critical Sections (Brief Discription)
                                                                                    25

§ 234.106 Partial activation.
This section requires that when a railroad receives a credible report of a system
malfunction involving a partial activation, it is required to take prompt action to
notify train crews and other railroads operating over such crossing prior to the next
train operation over the crossing. Further, the railroad is also required to notify the
law enforcement agency having jurisdiction over such crossing, or the railroad
police who are capable of responding to control vehicular traffic at the crossing.
Finally, the railroad must take action to assure that its employees or a law
enforcement agency provide the required alternative means of warning for
highway users at the crossing.

§ 234.107 False activation.
This section requires that a railroad having maintenance responsibility for a
warning system take prompt action to provide alternative means of warning
highway users and railroad employees at a specific crossing where a credible
report of a system malfunction involving a false activation has been received.

When a railroad receives a credible report of a system malfunction involving a
false activation, it is required to take prompt action to notify train crews and other
railroads operating over such crossing prior to the next train operation over the
crossing. Further, the railroad is also required to notify the law enforcement
agency having jurisdiction over such crossing, or the railroad police who are
capable of responding to control vehicular traffic at the crossing. Finally, the
railroad must take action to assure that its employees or a law enforcement agency
provide the required alternative means of warning for highway users at the
crossing

§ 234.109 Recordkeeping.
This section requires the railroad to keep a record of each credible report of a
warning system malfunction. This section specifies the information that is to be
recorded, and that each record shall remain on file and available for inspection by
the FRA for a period of at least one year from the date of the last railroad activity
in connection with such report. Such records may be kept on a form provided by
the railroad or electronically. Each record shall contain the following information:
(1) Location of crossing (by highway name and DOT/AAR crossing inventory
number); (2) Time and date that the railroad received the report; (3) Action taken
by railroad to comply with section 234.105, 234.106, or 234.107; (4) Time and
date of action taken to make final repair or correction. If the system is dismantled
and removed instead of repaired, the date of removal should be recorded.

Each record of a credible report of a warning system malfunction shall be kept and
made available for inspection by the FRA for one year from the last date of action
taken on each report. Thus, if the warning system is repaired and put back in

Exhibit C. Code of Federal Regulations, Title 49, Part 234, “Grade Crossing
Signal System Safety” Critical Sections (Brief Discription)
                                                                                    26

service, the record shall be kept for one year from the date of the last repair to
reactivate the system. If the system is dismantled and removed, the record shall be
kept for one year from the date of the removal.

§ 234.207 Adjustment, repair, or replacement of component.
This section requires a railroad to determine the cause of an active highway-rail
grade crossing warning system failure, malfunction, or defective condition
affecting the proper operation and/or ability of the system to warn highway users
of an approaching train; and perform necessary adjustment, repair, or replacement
without undue delay. Until such corrective action is completed, the railroad shall
take, when necessary, the appropriate actions as described in sections 234.105,
234.106, or 234.107.

A railroad is required to take action to determine the cause of each failure,
malfunction, or defective condition and complete necessary adjustment, repair, or
replacement without undue delay. Because of the great variety of factors involved
with failure, malfunction, or defective conditions of warning systems, including
the location of the crossing, frequency of train movements, type of corrective
action needed, availability of personnel, and other competing emergency
situations; it is not practical to establish specific time limits for remedial actions.
FRA continues to believe that the requirements of this section, taken together with
the alternative protective measures required under Sections 234.105, 234.106, and
234.107, will provide the needed measure of safety. Therefore, "without undue
delay" shall mean in as timely a manner as possible.

However, because temporary measures involve heightened risk to persons
manually controlling motor vehicle traffic and other risks (e.g. miscommunication
between flaggers at multiple-track crossings), it is important that grade crossing
warning systems be restored to proper functioning. The urgency associated with
this need is a product of rail traffic, motor vehicle traffic, the configuration of the
crossing, and other factors. FRA will expect railroads to restore warning systems
to proper functioning without delay that is undue in relation to these safety
considerations and, in general, as soon as possible.

§ 234.209 Interference with normal functioning of system.
This section requires the railroad to provide for the safety of highway users and/or
train traffic before interfering, in testing or otherwise, with the normal functioning
of any highway-rail grade crossing warning system. The intent of this section is to
ensure that railroads maintain the integrity of crossing warning systems by
prohibiting procedures or practices which defeat or nullify the normal functioning
of such systems.



Exhibit C. Code of Federal Regulations, Title 49, Part 234, “Grade Crossing
Signal System Safety” Critical Sections (Brief Discription)
                                                                                27

Interference is any condition that circumvents, hinders, impeded, or diminishes
whatsoever the intended warning of a system, and may be accomplished by
testing, installing, repairing, replacing, operating, or manipulating a warning
system component used in detecting the presence of or displaying warning of a
train, or in indicating the operation of the warning system. There is no difference
between accidental or intentional interference with respect to the enforcement of
this section. Test of crossing warning systems must not be conducted until it has
been ascertained provisions have been made for the safety of highway users and
no train movements will be affected.

§ 234.215 Standby power system.
This section requires railroads to provide a standby power source to operate the
warning system for a reasonable length of time during a period of primary power
interruption.

§ 234.225 Activation of warning system.
This section requires that each highway-rail grade crossing warning system be
maintained to activate in accordance with the design of the warning system, but in
no event shall it provide less than 20 seconds warning time for the normal
operation of through train movements before the crossing is occupied by rail
traffic.

§ 234.251 Standby power testing.
This section requires that standby power be tested at least each month to determine
its capability to operate the warning system in instances of primary power
interruption.




Exhibit C. Code of Federal Regulations, Title 49, Part 234, “Grade Crossing
Signal System Safety” Critical Sections (Brief Discription)
                                                                              28



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

The following individuals contributed to this report.


   Name                                 Title

   Kurt Hyde                            Assistant Inspector General for Surface
                                        and Maritime Programs

   Michael E. Goldstein                 Program Director

   Brenda R. James                      Program Director

   Stephen Gruner                       Senior Analyst

   Wendy M. Harris                      Senior Auditor

   Brett Kramer                         Analyst

   Michael Masoudian                    Analyst

   Rosa Scalice                         Auditor

   Joseph Tschurilow                    Auditor

   Scott Williams                       Analyst

   Clayton Boyce                        Strategic Communications Consultant

   Harriet Lambert                      Writer-Editor




Exhibit D. Major Contributors to This Report
APPENDIX. FRA MANAGEMENT COMMENTS


                                                      Memorandum
   U.S. Departmmt
   of Transcortat~on
   Federal R s h o d
   Administration




   fitc:      llov   - 2 20%                                     n Grady Cothen
                                                         y ~ r t of:
                                                 ~ c p l :o



   Suhjecr:   Responsc to DtaR Audit Report on Audit ofoversight;
              Iliphway- ail Grade C/o?$   Safety




   TO:        Todd J. Zinser
              3cputy Inspector Gcnenl

   Thank p u for the opportunity to comment on thc dran report and for the cffort expcnded by )oar
   staffin developing the findin?. and recommendations. \Ve think that ourwork togcthcr rclated to
   this audit hns slrcady yieldecl ~mprovementsin the implementation of gndc crossing safety pmgrnm
   clemcnts, and wc look fmvartlto taking the additional steps that you have idcntificd.

   Wc generally concur with the findings and recommendations of the repon. Attached are our
   dctailcd responses to mch recornmcndation and clarifying comments on the repon itself.




APPENDIX. FRA Management C m e n t s
                                                                                  30



                                                                Attachment 1

The Federal Railroad’s Administration’s (FRA’s) response to the
recommendations are interlineated below:

RECOMMENDATIONS
1. Clarify accident reporting to NRC by requiring the railroads to report
   any grade crossing collision resulting in a fatality at the scene or a death
   within 24 hours of the accident.

Response: The FRA concurs with this recommendation. Currently, the major
problem in management of this issue is that there may be a requirement to make
an NRC call upon the death of an injured person that occurs days or weeks after
the collision. This is not useful to FRA or the National Transportation Safety
Board (NTSB), since early notification is the objective. Physical evidence and
non-regulated data sources can be rapidly lost, and witnesses often become
unavailable, if an investigation is not launched immediately following the event.
As recommended, in forthcoming proposed revisions to Part 225, FRA will
propose to extinguish the requirement to call the NRC if no death has occurred
upon the expiration of 24 hours from the time of the accident/incident. This
should establish a “bright line” making management of this issue much more
satisfactory for the railroads as well as FRA. (FRA will coordinate with the NTSB
on this issue of clarification prior to issuing a proposed rule, since FRA has
attempted to maintain telephonic reporting requirements that are aligned with
those issued by NTSB.)

2. Maintain its new monthly oversight practice of reconciling grade crossing
   accident reports submitted to its database with those reported to NRC and
   rigorously recommend violations and assess and collect civil penalties,
   when railroads have failed to report to NRC.

Response: The FRA concurs with this recommendation.

3. Collect and analyze independent information on crossing collisions
   (including event recorder data and accident reports) from railroads and
   local or state law enforcement agencies, using a pilot program. The pilot
   should be conducted in the states that have the most grade crossing
   accidents year after year and designed to collect information that will
   allow FRA to evaluate the cause of collisions, type of warnings in place,


APPENDIX. FRA Management Comments
                                                                                                                     31

       and railroads’ compliance with Federal safety regulations for each fatality
       resulting from a grade crossing collision.


Response: The FRA concurs with this recommendation and, in order to carry out
the recommendation in the most efficient manner, will proceed as follows:

Pilot study

The FRA will implement a pilot study to verify railroad reports, in consultation
with State Participation program managers, as follows:

• FRA’s Office of Safety will commence a pilot study involving a sample of
  States for which police reports are readily available, including one State from
  each of FRA’s eight regions. As suggested, FRA will endeavor to select States
  with relatively high accident/incident counts.
• Police reports will be compared with form 6180.57s (Highway-Rail Grade
  Crossing Accident/Incident Reports submitted under 49 CFR Part 225). Issues
  potentially bearing on responsibility for the accident will be examined with the
  objective of reconciliation, wherever reasonably possible.
• Upon the expiration of the 12-month pilot study, FRA will determine if its
  marginal utility has justified its expense. 14 If it is found worthwhile, FRA will
  determine the feasibility of extending the program to the remaining States.
• FRA will also work with participating States that have inspectors investigate
  every crossing fatal crossing collision to see how their independent
  investigation compares to what was reported on the 6180.57. It is our
  understanding that Illinois and California follow this practice.

Use of event recorder data

The FRA agrees that locomotive event recorder data is a good source of
information to verify certain elements of railroad performance in the context of
crossing collisions. FRA will continue to evaluate event recorder data in the
crossing accidents it investigates and will, if requested by state or local authorities
after a particular incident, facilitate access to and analysis of that information. As
referenced in the report, FRA’s Safety Advisory of May 2, 2005, invites local
authorities to contact us whenever this information is required. This advisory has
since been distributed at the National Sheriff's Association annual conference

14
     FRA notes that the OIG audit included a preliminary attempt to compare police reports with accident/incident reports
     filed with FRA. Audit staff reported some difficulty in obtaining reports. OIG has not apprised FRA of any cases
     indicating significant conflicts in data in the two reports that could reflect adversely on the veracity of
     accident/incident reports.


APPENDIX. FRA Management Comments
                                                                                    32

(week of June 27), the Fraternal Order of Police annual conference (week of
August 1), the Governors’ Highway Safety Association annual conference (week
of August 29), and the International Association of Chiefs of Police annual
conference (week of September 26). We have also encouraged the State Safety
Participation Program Managers, at their regular meeting on September 13, 2005,
to participate in this outreach effort and to bring to us any issues they encounter
with respect to the accuracy of the railroads’ reports. FRA will continue to pursue
appropriate means of placing this advisory in the hands of State and local law
enforcement agencies.


We have also taken steps to ensure that event recorder data is available when
needed. On June 30, 2005, FRA revised the Locomotive Event Recorder
regulation, inter alia, to (1) capture additional data elements, including train horn
and auxiliary light functions, effective with locomotives ordered after October 1,
2006; and (2) require retention of data from all locomotive-borne recording
devices for one year (rather than 30 days), following a reportable
accident/incident.


With this foundation, our pilot study will include a review of available event
recorder information whenever there appears to be a conflict between the police
report and the railroad’s report on an issue that might be resolved by event
recorder data. (As information, it is not feasible to utilize event recorder data to
verify accident/incident reports without assembling other information, effectively
requiring a field investigation in most cases. Information concerning timetable
restrictions, temporary speed restrictions, wheel diameter (where wheel
tachometers are used to determine speed), and other factors are required to
determine train crew performance. It will be necessary to develop this information
where comparison of the police report and railroad’s report indicates a material
conflict that event recorder data can help resolve).
Video recording technology


The OIG is aware that video recording technology is being deployed by major
railroads to capture unusual events along the right-of-way, including highway-rail
crossing collisions. FRA regulations now require that this data, where available,
be retained for one year following the event; and for litigation reasons railroads
are likely to retain the information much longer. FRA’s Office of Research and
Development is supporting analysis of data from these applications. As the 2004
Secretary’s Action Plan for Highway-Rail Crossing Safety (at p. 6) notes:




APPENDIX. FRA Management Comments
                                                                                 33

   Focused research can open the window to new solutions. For example, the
   FRA is supporting the Norfolk Southern Railway and the North Carolina
   Department of Transportation in their cooperative effort to gather data using a
   locomotive camera system, known as Rail View. This system will gather
   video and telemetric on-track data, provide insight into rail-highway at-grade
   crossing crashes and trespasser incidents, and validate at-grade crossing-safety
   treatments.

The Office of Safety will monitor the progress of this effort and determine
whether the findings support a broader, operational program to capture and
analyze video data, comparing it with data reported by the railroads. Such a
program could involve capture of locomotive event recorder data for further
analysis in the case of specific events.


4. Increase enforcement of existing Federal grade crossing safety regulations
   when railroads fail to comply, especially with those involving critical
   defects, by recommending more violations and assessing and collecting
   civil penalties.

Response: The FRA generally concurs with this recommendation and notes that,
in response to the OIG report dated February 16, 2005, FRA has already placed
great emphasis on focused enforcement of its safety regulations, including 49 CFR
Part 234. Further, FRA is putting control systems in place to ensure good use of
existing data, whether reported by the railroads or gathered through the inspection
process. FRA believes that the results of this effort will be even more aggressive
and substantial enforcement activity. As always, of course, FRA will avoid use of
quotas or inflexible mandates that could lead to injustice and loss of confidence in
the fairness of our compliance efforts.




APPENDIX. FRA Management Comments
                                                                                    34

                                                                    Attachment 2
Specific Comments:

Page 9:

The draft report states that “...after violations are issued, Federal law allows FRA
to compromise the amount of the civil penalty with the railroads, resulting in the
collection of lower penalties.” It is not clear what the purpose of this statement is,
but FRA is concerned that it may be read to imply lack of vigilance.

The policy of the Federal Claims Collection Act and the Federal railroad safety
statutes is that FRA should attempt to achieve compromise of initial penalty
demands based on criteria set out in those laws. The results are intended to be a
much more swift resolution of the claims than litigation for the initial demand
could possibly produce and a resolution that takes into account the multitude of
factors that may apply to any specific allegation of a violation. FRA annually
collects millions of dollars of penalties, at very high average percentages of the
initial penalty demand, by carefully following the statutory guidance. The
alternative is to take thousands of claims (under Part 234 and other safety
regulations) to Federal Court, where judges would be able to determine what they
are worth after the expenditure of Federal legal and judicial resources that in many
cases would exceed the original demand amount. It is certain that neither the
Department of Justice nor the courts would welcome such a flood of litigation,
which would be contrary to Congress’s express purpose in encouraging
compromise. It should be noted that in distinct and warranted cases FRA has
required payment of the full amount assessed.

Page 15, Table 3, and accompanying text:

The report provides a table that details critical defects taken by FRA inspectors
under 49 CFR Part 234, which governs the inspection, testing and maintenance of
automated warning devices at highway-rail crossings. The report expresses
concern that only a minority of critical defects are taken for violation. Although
there are a variety of legitimate reasons that could influence an inspector not to
write a violation for one of these defects (see criteria set forth at 49 CFR Part 209,
Appendix A), FRA in general agrees that more aggressive use of civil penalty
sanctions should be pursued.

However, FRA is concerned that data in the table may be misleading to the public
regarding the safety of warning systems. Specifically, dominating the listing of
critical defects are the 4,680 defects arising under section 234.209, which requires
that, “[w]hen any essential component of a highway-rail grade crossing warning

APPENDIX. FRA Management Comments
                                                                                   35

system fails to perform its intended function, the cause shall be determined and
faulty component adjusted, repaired, or replaced, without undue delay.”
Violations of this provision may involve considerable risk to the public, and we
agree that this is a critical rule.

After review of the data and discussion with FRA personnel, however, FRA has
concluded that the circumstances associated with a majority of the 4,680 defects
under section 234.209 were, in fact, less serious conditions that should have been
cited under different, more specific, defect codes. The practice of misusing this
defect code apparently arose out of habits formed in administration of 49 CFR Part
236, which for many decades prior to adoption of Part 234 has employed similar
language in section 236.11. Section 236.11 has often been used as a “catch all”
for items not otherwise called out by Part 236 provisions. The problem of
misapplication of this defect code under Part 234 is largely isolated to two FRA
regions, and FRA has been working to address it. Although FRA recognizes that
this is a quality control problem that needs to be addressed, and we regret the
confusion presented to OIG personnel analyzing the data, FRA believes that the
public should be reassured that, overall, railroads are in fact taking prompt action
when they become aware of conditions affecting the safe operation of highway-
rail grade crossing warning systems.




APPENDIX. FRA Management Comments
                                           Attachment 

The following tables are textual representations of the graphical charts that exist in 
the original document. These tables are included for individuals that use assistive 
technologies to read documents obtained from the Office of Inspector General web 
site, and were not included in the original report. 



      Figure 1. Number of the Four Largest Class I Railroads 
                  Operating in Each State in 2003 

       •  Three  states  had  all  four  of  the  largest  Class  I  railroads  operating  including: 
       Illinois, Louisiana, and Missouri. 
       • Seven states had three of the  four largest Class  I railroads operating  including: 
       Alabama, Indiana, Iowa, Kansas, Kentucky, Mississippi, and Tennessee. 
       •  Thirty  states  and  the  District  of  Columbia  had  two  of  the  four  largest  Class  I 
       railroads operating including: Arizona, Arkansas, California, Colorado, Delaware, 
       Florida,  Georgia,  Idaho,  Maryland,  Michigan,  Minnesota,  Montana,  Nebraska, 
       Nevada, New Jersey, New Mexico, New York, North Carolina, Ohio, Oklahoma, 
       Oregon, Pennsylvania, South Carolina, Texas, Utah, Virginia, Washington, West 
       Virginia Wisconsin, and Wyoming. 
       •  Four  states  had  one  of  the  four  largest  Class  I  railroads  operating  including: 
       Connecticut, Massachusetts, North Dakota, and South Dakota. 
       •  Six  states  did  not  have  any  of  the  four  largest  Class  I  railroads  operating 
       including: Alaska, Hawaii, Maine, New Hampshire, Rhode Island, and Vermont. 

   Source: Association of American Railroads
